The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
                                        Rhonda K. Schmidtlein
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, DC 20436

                                           May 28, 2014




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (the IG Act),
the U.S. International Trade Commission (USITC or Commission) hereby transmits the
Semiannual Report of the USITC Inspector General for the period October 1, 2013 to March 31
2014.

The Commission appreciates the work done by the Office of Inspector General in ensuring the
effectiveness, efficiency, and integrity of Commission programs and operations. Inspector
General Philip M. Heneghan and his staff continue to provide invaluable assistance to the
Commission. We look forward to continuing to work with Mr. Heneghan as we address the
issues raised in his report.

The Inspector General’s Semiannual Report to Congress identifies the top management and
performance challenges of the above referenced reporting period that he believes require significant
attention. The Commission concurs with the critical challenges identified by the Inspector
General. We continue to address these challenges in order to ensure that our internal
operations are well managed. The Inspector General has recognized our progress in improving
financial management and has removed this topic from the list of major institutional
challenges identified in previous Semiannual Report(s) to Congress.

The actions we are taking with respect to the Inspector General’s identified management challenges
on (1) internal control and (2) using information technology to improve staff productivity are
summarized in Part I of this message. Part II of this message addresses the status of specific
corrective actions that have been taken in response to Inspector General recommendations.


                                                 1
 I.     Addressing Management and Performance Challenges

        A. Internal Control

 The Commission understands the importance of ensuring agency-wide acceptance of its
 internal control program and promoting a culture committed to effective internal controls.
 In recent years the agency has focused the majority of its efforts on implementing financial
 controls and the success of this effort has resulted in recent unqualified audit opinions.
 Since the beginning of FY2013, the Commission has sought to establish and implement an
 effective internal control system that addresses agency-wide processes. Documented and
 consistent processes and procedures are necessary to provide a reasonable level of
 assurance that offices are operating in an efficient and effective manner. Therefore, the
 Commission plans to focus on the development of a risk-based internal control structure
 and continue its business process mapping efforts throughout the agency in order to
 continue to document, establish, implement, and monitor strong and effective internal
 controls.

 As part of its commitment to maintaining and improving a strong internal control structure,
 the Commission established an Internal Control and Risk Management Division in the first
 part of FY 2014. This new division works with the Commissioners, senior executives, and
 other key senior managers to:

 •     Maintain and improve the internal control and risk management culture;
 •     Create an internal control plan based on risk assessments in alignment with the
       Commission’s Strategic Plan, Annual Performance Plan, and Annual Performance
       Report;
 •     Provide internal control technical support throughout the agency; and
 •     Facilitate the preparation of the agency’s Statement of Assurance.

 As accurate assessments of both financial and non-financial risks are integral to performing
 effective internal controls evaluations, the Commission’s internal control program will in
 FY 2015–16 among other activities, include formalized risk assessments to identify which
 areas in the organization pose the highest threat to mission achievement if controls are not
 in place and functioning properly. These assessments will consider internal and external
 risks, risk analysis, and internal control activities required to mitigate assessed risks. These
 activities will better ensure the achievement of the internal control objectives of efficient
 and effective operations, reliability of reporting, and compliance with laws and regulations.


        B. Using Information Technology to Improve Staff Productivity

Information technology is integral to the Commission’s operations and the productivity of its
staff. Ensuring the security and integrity of the Commission’s information technology resources
is of paramount concern. The Commission recognizes that more needs to be done in this area to
enhance the security and availability of its networks and systems as well as to support and
improve staff productivity.

                                                   2
Within the context of the cybersecurity-related findings, the Commission has embarked on an
aggressive program to implement the four critical security controls identified by the Inspector
General. This work forms the nucleus of a larger effort to fully implement the Commission’s
management decisions developed in response to audits and inspections of information technology
security and operations. While we have achieved some early improvements as noted by the
Inspector General, high priority work is continuing to address all of the identified issues.

These cybersecurity initiatives will also benefit Commission staff productivity and IT resource
availability. The Commission is facing new challenges regarding established work processes and
staff productivity in connection with the expiration of its office lease and possibility of relocation
and significantly reduced office space. Effective information technology resource management
will be critical to mission support during this period. As important as the critical controls are to
security and integrity, two of the four controls, coupled with recent and ongoing initiatives to
enhance remote access, will be invaluable in planning for and providing technology support to
any potential changes in the ITC’s physical space requirements.

As the Commission’s operational units continue to document and define their business activities,
the knowledge gained will enable the Commission to plan and deploy technology that will
increase these units’ efficiency and effectiveness. As reported in the previous semiannual report,
the Commission planned to automate the management of the Harmonized Tariff Schedule so that
it can be more efficiently updated and the risk of human error is minimized and is now in the
testing phase of the new process. The Commission continues to evaluate and map its business
processes to identify technology resource requirements that will enhance and optimize
productivity.




 II.     Actions on Recommendations

       A. Actions on Inspector General Recommendations Made in this Reporting Period

During this semiannual reporting period, the Inspector General issued 11 new reports that
included 12 new recommendations. The Commission issued management decisions on 11 of the
recommendations contained in the reports (see Table 3 in the Inspector General’s report). A
management decision on the twelfth recommendation is not due until the subsequent reporting
period.

With respect to the Inspector General’s recommendations from prior periods, the Commission issued
management decisions for all recommendations that were made. The Commission also completed
final action on management decisions for 11 reports during this and prior reporting periods (see
Table 7 in the Inspector General’s report). The Commission remains focused on addressing and
resolving all of its outstanding management decisions, as described below.




                                                   3
B. Actions on Recommendations Made in Prior Periods

(1) The Report notes that the Commission has not yet completed final action on
    modifications to the published Harmonized Tariff Schedule. While the vast majority
    of this project has been completed, contract staff turnover and the complexity
    associated with designing sophisticated IT solutions to automate updates and
    minimize entry error has revealed system bugs that necessitate greater technical
    attention. The Commission is rectifying the situation by completing all bug fixes,
    testing and making incremental improvements to ensure greater stability of the
    system, and expects to move the project into its production phase before the end of the
    year.

(2) The Report notes that the Commission has not completed final action on
    recommendations to control the use and retention of confidential business information
    and business proprietary information at the end of its investigations and proceedings.
    The Commission is taking a number of steps to address these recommendations,
    including a thorough review of the legal issues involved and the preparation of a draft
    handbook on the handling of Controlled Unclassified Information. Extensive
    coordination among the offices is still ongoing and further progress is anticipated by
    the end of the calendar year.

(3) The Report notes that the Commission has not completed final action on
    recommendations associated with the audit of software licensing. Closing out the
    software licensing decisions was delayed due to a staffing shortage and difficulty
    identifying all affected software. Any remaining instances of unlicensed software will
    be addressed through application whitelisting; this process should be completed by the
    end of this fiscal year.

(4) The Report notes that the Commission has not completed final action on
    recommendations associated with the audit of Citrix remote access. The outstanding
    recommendation entailed migrating centralized profiles to ensure that local and
    remote profiles were fully synchronized. Since the end of the reporting period, this last
    management decision was completed.

(5) The Report notes that the Commission has not completed final action on
    recommendations associated with the evaluation of the purchase card program.
    Procedures were recently put in place to review and validate object class codes entered
    for purchase card transactions, as recommended by the Inspector General in the
    “Purchase Card” report. The Office of Procurement requested additional time to test
    and document the process prior to final implementation, which will occur in the
    subsequent reporting period.




                                          4
The statistical tables required under the IG Act are included as Appendix A to this report.


       C. Actions on External Reviews

During the reporting period, the Commission addressed recommendations made by the Office of
Personnel Management (OPM) as a result of OPM’s 2013 review of the Commission’s human
capital management program. During the reporting period the Commission updated policies and
procedures related to hiring and recruitment actions, evaluated the performance management
system, provided supervisory training on performance management, and created a draft update of
merit promotion policies and procedures. As a result of the Commission’s efforts, OPM formally
closed the evaluation on February 28, 2014. No further Commission action is required with respect
to this evaluation.



 Irving A. Williamson
 Chairman




                                                  5
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


April 30, 2014                                             OIG-MM-009

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General for the period October 1, 2013 to March 31, 2014.

During this period, we issued 11 reports and made 12 recommendations to promote the
efficiency, effectiveness, and integrity of the Commission’s operations. The Commission
completed final action on four of these recommendations during this reporting period.
Additionally, the Commission completed final action on 18 recommendations that had
been made by the Inspector General in prior reporting periods.

Three reports early in this period highlighted weaknesses in the Commission’s
information security program. Strong and immediate action on the recommendations we
made and direct involvement by the Chairman’s office significantly improved the
information security posture of the Commission by the end of this reporting period. Most
notable was implementation of a technical control that requires software to be
“whitelisted”. Such a control restricts the use of software on ITCNet to a set that is
preapproved by the Commission.

I would like to thank you for your commitment to strengthening the operations of the
Commission and supporting the work of my office.




Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General .............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges ............................................................ 2
  1. Internal Control .......................................................................................................... 2
  2. Using Information Technology to Improve Staff Productivity.................................. 3

Inspector General Reports Issued During this Period .................................................. 4
  Management Letter Ethics Forms, OIG-ML-14-01 ........................................................ 5
  Audit of Commission’s Patching Process, OIG-AR-14-02 ............................................ 5
  Inspector General FISMA Cyberscope FY 2013 Submission, OIG-MR-14-09 ............. 6
  Post-FISMA Management Letter, OIG-ML-14-04......................................................... 7
  Audit of FY 2013 Financial Statement, OIG-AR-14-05 ................................................ 8
  Report on Internal Control FY 2013, OIG-AR-14-06 .................................................... 8
  Report on Compliance with Laws and Regulations FY 2013, OIG-AR-14-07 .............. 8
  Management Letter for FY 2013 Financial Statement, OIG-ML-14-08 ........................ 8
  Charge Card Risk Assessment Report, OIG-MR-14-10 ................................................. 9
  Follow-up on Whitelisting Implementation, OIG-ML-14-11 ......................................... 9

Significant Recommendations from Prior Periods ...................................................... 10

Hotline and Investigations.............................................................................................. 11
 Investigations and Inquiries – Overview ...................................................................... 11
 OIG Hotline Contacts ................................................................................................... 11
 Investigations and Inquiries .......................................................................................... 12

Status of Actions Related to External Reviews Completed During Prior Periods ... 12
  Office of Personnel Management – Human Resources Review ................................... 12

Reviews Completed for Other Offices of Inspector General ...................................... 12

Congressional Activities ................................................................................................. 13

Council on Inspectors General for Integrity and Efficiency....................................... 13

Federal Financial Management Improvement Act Reporting ................................... 13

Peer Review ..................................................................................................................... 14




                                                                 i
                               Report Period: October 1, 2013 through March 31, 2014
               U.S. International Trade Commission
                            Inspector General Semiannual Report

Tables
  Table 1:   Reporting Requirements Index ...................................................................... iii
  Table 2:   Management and Performance Challenges ..................................................... 2
  Table 3:   Reports by Subject Matter ............................................................................... 4
  Table 4:   Significant Recommendations from Prior Reports ........................................ 15
  Table 5:   Reports with Questioned or Unsupported Costs............................................ 15
  Table 6:   Reports with Recommendations that Funds be Put to Better Use ................. 16
  Table 7:   Reports With Final Action Completed During This Reporting Period ......... 17
  Table 8:   Status of Reports Issued Without Final Action ............................................. 18

Appendices
Appendix A: Chairman’s Statistical Tables…………………………………………...A-1




                                                         ii
                         Report Period: October 1, 2013 through March 31, 2014
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                        Table 1: Reporting Requirements Index



                         Reporting Requirements Index

   IG Act                                 Description                       Page
Section 4(a)(2)      Review of Legislation                                  None
                     Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                              2-3
                     Deficiencies
                     Description of Recommendations for Corrective
Section 5(a)(2)      Action with Respect to Significant Problems, Abuses,   4-10
                     and Deficiencies
                     Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                             10, 15
                     Which Corrective Action Has Not Been Completed
                     A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                             None
                     Authorities
                     Summary of Instances Where Information or
Section 5(a)(5)                                                             None
                     Assistance was Unreasonably Refused
                     Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                               4
                     during this Reporting Period
Section 5(a)(7)      Summary of Significant Reports                         4-10
                     Statistical Table showing Questioned and
Section 5(a)(8)                                                              15
                     Unsupported Costs
                     Statistical Table showing Recommendations Where
Section 5(a)(9)                                                              16
                     Funds Could be Put to Better Use
                     Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)     the Reporting Period for Which no Management           None
                     Decision Has Been Made
                     Description of Any Significant Revised Management
Section 5(a)(11)                                                            None
                     Decisions
                     Information Concerning any Significant Management
Section 5(a)(12)
                     Decision with Which the Inspector General is in        None
                     Disagreement
Section 5(a)(13)     Information described under section 5(b) of FFMIA       13
                     Results of Peer Review Completed During This
Section 5(a)(14)                                                             14
                     Period or Date of Last Peer Review
                     List of Any Outstanding Recommendations From
Section 5(a)(15)                                                            None
                     Peer Review
                     List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                             14
                     Office of Inspector General During this Period




                                            iii
                   Report Period: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                      Inspector General Semiannual Report


                         Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and the Inspector General’s initiative.




                    Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a report, semiannually, that
summarizes the activities of the office. This Semiannual Report covers the period from
October 1, 2013 through March 31, 2014. The 17 requirements shown in Table 1 are
specified in the IG Act and must be included in the report. The layout of this Semiannual
Report is described below.

This Semiannual Report starts with a description of the Management and Performance
Challenges Report, OIG-MR-14-03, which identified two management challenges facing
the Commission and the actions management has taken to address these challenges. It
then summarizes the results of the other reports issued during this period, describes
significant recommendations from prior reports where final action is not complete, and
summarizes the hotline and investigative activities of the Inspector General. The next
section provides a summary of other reviews of the Commission conducted by external
parties, along with the status of recommendations from those reports. The last sections
supply information on other reportable activities such as congressional activity,
participation in the Council on Inspectors General for Integrity and Efficiency, other
compliance activities, and our Peer Review status. Additional tables at the end of the
report detail statistics on Office of Inspector General reports and recommendations.




                                              1
                        Report: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                       Inspector General Semiannual Report


           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report (OIG-MR-14-03) on November 15,
2013. The report identified the challenges based on information learned from audit,
evaluation, and inspection work, a general knowledge of the Commission’s programs and
activities, and input from management regarding challenges facing the agency. The
management and performance challenges identified by the Office of Inspector General
include the two areas identified in Table 2. Financial management, which had been
previously reported to be among the agencies’ top management and performance
challenges, has now been taken off of this list, given the improvments the agency has
made in this area. Following the table is a short discussion of the two challenges and the
efforts the agency has taken to address them.


                      Table 2: Management and Performance Challenges

                    Management and Performance Challenges
           1. Internal Control
           2. Using Information Technology to Improve Staff Productivity


1. Internal Control

The Commission’s management is responsible for establishing and maintaining a system
of internal controls. These internal controls are the plans, policies, procedures, and
organizational environment that managers use to ensure their programs and operations
are achieving the intended results through the effective use of public resources.

Documented and consistent policies and procedures are necessary to provide a reasonable
level of assurance that offices are operating in an efficient and effective manner.
However, the policies and procedures are only effective if they are functioning as
intended, monitored, and updated. Based on the results of audits, evaluations, and other
reviews, we continue to find policies and procedures that are outdated, inefficient, and
ineffective. While the Commission has been taking actions to address these deficiencies,
many challenges remain in the areas of on-going monitoring for effectiveness and
continual process improvement to gain efficiencies.

Performing risk assessments is a fundamental element within a system of internal
controls that has not been a structured part of the Commission’s management activities.

                                              2
                        Report: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                       Inspector General Semiannual Report

The Commission lacks documented procedures to identify, validate, assess, mitigate,
monitor, and report on organizational risk. The Commission has recently taken steps to
begin developing a risk assessment framework, but many challenges remain in educating
management on risk identification, prioritization, management, and reporting.

The Commission has been committed to improving and strengthening the internal control
environment. At the same time, the Commission understands that the effort must engage
leaders broadly, ensure buy-in across programmatic and administrative offices and be
sustained over a long period of time in order to achieve a mature and effective internal
control program. The Commission will be challenged to manage and drive the cultural
changes associated with the development and implementation of an effective
organizational internal control program.

2. Using Information Technology to Improve Staff Productivity

Information Technology should be an enabler for the USITC knowledge workers to
operate more effectively and efficiently. In order for this to happen, the Commission
needs to have two foundational requirements: 1) a stable information technology platform
and 2) an environment receptive to change and automation.

To have a stable information technology platform requires basic operational security.
Three reports issued during this period highlighted weakness in the Commission’s
information security program. A total of eight recommendations were made and the
Commission responded with an aggressive and comprehensive plan that included thirty-
four separate management decisions, all of them scheduled to be completed by June
2014. Forceful action on recommendations and direct involvement by the Chairman’s
office has significantly improved the information security posture of the Commission,
most notably the recent implementation of technical whitelisting control for software.

The Commission faces many challenges implementing information technology solutions
to improve staff productivity. Information technology should be seen as a supporting,
resource, and not as an entity unto itself. Until this concept is embraced, Commission
staff will continue to be frustrated and look for ways to be productive despite the
technology. If the Commission can improve the flexibility, reliability, and performance of
its technology, Commission staff will use it to transform the way they work, resulting in a
better, more efficient work product.

To improve productivity, the Commission should prioritize the appropriate skills and
resources in the right areas to ensure that both basic and enhanced services work well and
contribute to a stable, consistent environment to effectively serve its staff regardless of
their location, or the situation at the primary data center.




                                              3
                        Report: October 1, 2013 through March 31, 2014
                 U.S. International Trade Commission
                           Inspector General Semiannual Report


         Inspector General Reports Issued During this Period
 The Inspector General issued 11 reports with a total of 12 recommendations during this
 reporting period. The Commission made management decisions on 11 of the 12
 recommendations, and the Inspector General agreed with all the management decisions.
 Management decisions for the last recommendation were not due until after the reporting
 period closed.

 A listing of each report issued during this reporting period, by subject matter, is provided
 in Table 3.
                                 Table 3: Reports by Subject Matter


                                   Reports by Subject Matter
  Subject           Report                                            Date           Number of
                                          Report Title
  Matter            Number                                           Issued       Recommendations
                                Management Letter on Ethics
Administrative   OIG-ML-14-01                                    11/07/2013                 3
                                Forms
                                Management and
Administrative OIG-MR-14-03                                      11/15/2013                 0
                                Performance Challenges
                                Charge Card Risk Assessment
Administrative OIG-MR-14-10                                      01/31/2014                 1
                                Report
                                Audit of FY 2013 Financial
Financial         OIG-AR-14-05                                   12/13/2013                 0
                                Statement
                                Report on Internal Control
Financial         OIG-AR-14-06                                   12/13/2013                 0
                                FY 2013
                                Report on Compliance with
Financial         OIG-AR-14-07  Laws and Regulations FY          12/13/2013                 0
                                2013
                                Management Letter for FY
Financial         OIG-ML-14-08                                   12/24/2013                 0
                                2013 Financial Statement
IT Security       OIG-AR-14-02  Audit of Patching Process        11/12/2013                 7
                                Inspector General FISMA
IT Security       OIG-MR-14-09 Cyberscope FY 2013                12/02/2013                 0
                                Submission
                                Post-FISMA Management
IT Security       OIG-ML-14-04                                   12/05/2013                 1
                                Letter
                                Follow-Up on Whitelisting
IT Security       OIG-ML-14-11                                   03/31/2014                 0
                                Implementation
Total Recommendations Issued During This Reporting Period                                  12
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put to better
use in any of these reports.


 The title, key findings, and summary information of each report is provided below.




                                                    4
                            Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                        Inspector General Semiannual Report

Management Letter Ethics Forms, OIG-ML-14-01

RESULT: The Commission did not have proper controls in place to ensure employees
filed their annual financial disclosure reports within the statutory timeframes.

The Ethics in Government Act of 1978, as amended, requires individuals in certain
positions to file a disclosure report of their finances as well as other interests outside the
Government. The primary purpose of the disclosure report is to assist agencies in
identifying potential conflicts of interest between a filer's official duties and the filer's
private financial interests and affiliations. The Office of Government Ethics regulations
require Senior Executive Service (SES) members to file within 30 days of assuming the
position, and annually thereafter.

During this reporting period the Office of Inspector General requested the Commission’s
Ethics Office to provide copies of the annual public financial disclosure reports that
should have been filed by a current SES employee. The Ethics Office did not have the
reports. Based on this instance, we identified the following two problems:

    •   The process for new entrants, designated as filers, did not have controls to ensure
        financial disclosure reports are filed within the 30 day statutory timeframe.
    •   The process for filing the annual financial disclosure reports did not have controls
        to ensure that all employees, who have been designated as filers, submit the report
        as required.

We made three recommendations to address the problems identified. Management
agreed with our assessment and made management decisions to address the
recommendations. The Commission completed final action on all three
recommendations during this reporting period.

Audit of Commission’s Patching Process, OIG-AR-14-02

RESULT: The audit determined that the Commissions patching process was not
effective.

We performed an audit of the Commission’s process for patching systems. We used data
provided by the Chief Information Officer that was generated from their vulnerability
management scanning process.

We first analyzed the data provided by the Office of the Chief Information Officer to
determine the patch status of each host on the network. We found that the Commission’s
scanning software was not properly configured and failed to measure the patch status of
49% of the hosts. When scans cannot measure for missing patches, the hosts may appear


                                               5
                         Report: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                       Inspector General Semiannual Report

clean, as if they have no vulnerabilities, providing a false sense of security. By not
measuring all of the hosts, the Commission was unaware of the risks to the network.

We then analyzed data from the 51% of the Commission’s hosts that were measured, to
determine if patches for High severity vulnerabilities had been properly applied. We
found that 97.8% of these hosts were missing required patches to resolve High severity
vulnerabilities. We also found that many of these patches were weeks, months, and years
old. Due to the risk they pose to the network, patches for High severity vulnerabilities
should begin to be applied upon patch release.

We also reviewed how risk information was reported to executive management due to
missing patches on the network. We found that the Commission had a published
performance metric for network security. It was a complicated formula that used the log
of a sum to describe the security of the network. We applied this formula to the data
generated from the vulnerability management software. The results implied that as long
as it does not exceed 33 High severity vulnerabilities per host, the Commission had met
its target performance goal to ensure network security. Reporting that the performance
goals had been successfully met suggested to executive management that the
Commission’s network was secure, when in fact it was not.

We issued seven recommendations to address the problems identified in the report. The
Chairman agreed with the findings in the report and made management decisions to
implement the recommendations.

Inspector General FISMA Cyberscope FY 2013 Submission, OIG-MR-14-09

RESULT: The Commission is not effectively implementing its information security
program.

The Federal Information Security Management Act of 2002 (FISMA), requires the Office
of Inspector General to independently evaluate and report to the Office of Management
and Budget on how the Commission has established and implemented information
security programs. The Office of Management and Budget’s report structure consists of a
series of questions that cover 11 different program areas.

In our FY 2013 submission, we responded “no” to 48 of the questions; meaning that the
Commission’s security program was missing 48 components.

While the results of our assessment continued to identify deficiencies, no
recommendations were issued because this report was provided to the Office of
Management and Budget, not the Commission. We issued a Post-FISMA Management
Letter to the Chairman to explain the implications of our evaluation and described actions
that the Commission can take to improve its information security program.


                                              6
                        Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Post-FISMA Management Letter, OIG-ML-14-04

RESULT: The Post-FISMA Management Letter identified the Commission’s need to
focus on the top four security controls.

The FISMA report assesses the maturity of an agency’s information security program,
covering a wide range of program components. The report contains more than 100
questions about the Commission’s information security program. In our FY 2013
FISMA submission, we answered 48 of the questions with a “no,” meaning that the
program is missing 48 components.

Because of the large number of negative answers, there was a concern that the
Commission may attempt to address too many things and not the most important things.
As a result, we prepared this Management Letter to assist the Commission in focusing on
doing the right work and to handle the most important things first.

Guidance from the Department of Homeland Security identifies the twenty most
important security controls, the top four of which are the only controls rated as “very
high” for the mitigation of attacks by the National Security Agency. These top four
controls are:

    •   Inventory of Authorized and Unauthorized Devices;
    •   Inventory of Authorized and Unauthorized Software;
    •   Secure Configurations for Hardware and Software on Laptops, Workstations, and
        Servers; and
    •   Continuous Vulnerability Assessment and Remediation.

Having these four controls in place will allow the Commission to shift the focus of
security reviews from a static process to one that consistently assesses and fixes security
issues.

The Management Letter contained one new recommendation, to implement technical
whitelisting. We also encouraged the Chairman to implement the seven
recommendations from a recent audit of the Commission’s patching process. The
Chairman agreed with our assessment and has made management decisions to implement
all of the recommendations by June 2014.




                                              7
                        Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                        Inspector General Semiannual Report

Audit of FY 2013 Financial Statement, OIG-AR-14-05

RESULT: The audit resulted in an unqualified opinion of the Commission’s fiscal year
2013 financial statement.

The Inspector General engaged the services of an independent certified public accounting
firm to audit the balance sheet and related statements of net cost, changes in net position,
and budgetary resources for fiscal year 2012. The auditors were able to obtain sufficient
evidence to assert that the Commission’s financial statements for the fiscal year ended
September 30, 2013, present fairly in all material respects the financial position of the
Commission.

Report on Internal Control FY 2013, OIG-AR-14-06

RESULT: The audit did not identify any material weaknesses or significant deficiencies.

As part of the audit of the financial statement, the auditors were required to issue a report
on internal control. The testing was limited to internal controls over financial reporting
as they relate to the financial statement. The auditors did not test internal controls
relevant to ensuring effective operations. The results of the testing performed did not
identify any material weaknesses or significant deficiencies in the Commission’s internal
control over financial reporting.

Report on Compliance with Laws and Regulations FY 2013, OIG-AR-14-07

RESULT: The report did not identify any instances of noncompliance.

As part of the financial audit, the Inspector General engaged the services of the
independent public accounting firm to audit the Commission’s compliance with certain
laws and regulations. The auditors did not test compliance with all laws and regulations
applicable to the Commission. The testing was limited to provisions of laws and
regulations that would have a direct and material effect on the determination of financial
statement amounts. The results of the testing performed by the audit team did not identify
any instances of noncompliance.

Management Letter for FY 2013 Financial Statement, OIG-ML-14-08

RESULT: The Commission has procedural problems related to undelivered orders and
account reconciliations.

As part of the financial audit, the auditors issued a Management Letter that addressed
matters involving internal control that were found during the audit but were not required
to be included in the audit reports. The Management Letter identified procedural issues


                                               8
                         Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                       Inspector General Semiannual Report

associated with undelivered orders and account reconciliations. Due to the continued
improvements by the Commission to address the matters identified in the report, the
auditors did not issue any new recommendations.

Charge Card Risk Assessment Report, OIG-MR-14-10

RESULT: The Commission does not have a process to monitor individual travel
transactions.

We performed a risk assessment of the Commission’s charge card program, as required
by the Government Charge Card Abuse Prevention Act of 2012. Our assessment
determined that the Commission’s risk of illegal, improper, or erroneous purchases is
low. We did identify one area, related to travel card transactions for individually billed
accounts, where the Commission should improve their control activities.

We issued one recommendation to improve the control activities for travel card
transactions. The Chairman agreed with the assessment and was in the process of
developing management decisions to address the recommendation at the time the
reporting period closed.

Follow-up on Whitelisting Implementation, OIG-ML-14-11

RESULT: The Commission’s management decision to implement whitelisting was
completed and effective.

On December 5, 2013, we issued a Management Letter to the Chairman related to the
Commission’s inability to implement four basic security controls. As a result of this
report, the Chairman developed management decisions, with aggressive timeframes, to
begin correcting these critical security control problems. One of the management
decisions was to implement whitelist control on all domain-joined user PCs and remote
access servers.

The Commission reported that final action had been completed on the management
decision to implement whitelist control on all domain-joined user PCs and remote access
servers. We conducted a follow-up review to determine whether this action was
implemented effectively.

We created a test designed to execute seven different software applications that were not
listed in the Commission’s catalog of permitted software. We ran our test on different
user PCs and through the Citrix remote access. The whitelisting control blocked the




                                              9
                        Report: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                       Inspector General Semiannual Report

applications from running and prevented the unauthorized software from being executed
on the users PCs.

As a result, we have determined that the Commission’s final action on this management
decision was completed and effective.



         Significant Recommendations from Prior Periods
The Commission has 20 recommendations described in prior semiannual reports where
corrective action has not yet been completed. The Inspector General identified three of
the 20 recommendations as significant. A brief summary of each significant
recommendation from prior periods is described below.

The first significant recommendation is from an evaluation that focused on modifications
to the Harmonized Tariff Schedule of the United States. The evaluation found that the
Commission maintained the Harmonized Tariff Schedule in many different electronic
files and various file formats. This resulted in inaccurate and inconsistent information to
be presented on the Commission’s public website. The Inspector General recommended
that the Commission develop and implement a single database to manage the Harmonized
Tariff Schedule. The Commission made management decisions to implement the
recommendation.

The second significant recommendation is from a report that reviewed whether the
Commission effectively controlled the use and retention of confidential business
information and business proprietary information at the end of an investigation or
proceeding. The evaluation found that confidential business information and business
proprietary information was retained indefinitely as a routine practice by employees as a
matter of convenience and preference. The Inspector General recommended that the
Commission create written policy that specifically addresses procedures for handling and
destroying non-record copies of confidential business information and business
proprietary information when an investigation or proceeding is closed. The Commission
made management decisions to implement the recommendation.

The third significant recommendation from prior periods is from an audit of software
licensing. The report found that the Commission did not have a complete record of all
software installed on its network. By not preventing or detecting software from being
installed, the Commission is at risk of violating license agreements as well as subjecting
its network and systems to additional risks. The Inspector General recommended that the
Office of the Chief Information Officer implement technical monitoring to detect the
installation of software, including details on when it was installed and by whom. The
Commission made management decisions to implement the recommendation.


                                             10
                        Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                       Inspector General Semiannual Report

A listing that identifies each recommendation along with the corresponding report
number is provided in Table 4.




                           Hotline and Investigations

Investigations and Inquiries – Overview
In accordance with professional standards and guidelines, the Inspector General conducts
investigations and inquiries of criminal, civil, and administrative wrongdoing involving
Commission programs, operations, and personnel. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the activities of the
Commission.

The Inspector General reviews and analyzes all complaints received to determine the
appropriate course of action. In instances where it is determined that something less than
a full investigation is appropriate, the Inspector General may conduct a preliminary
inquiry into the allegation. If the information obtained during the inquiry indicates that a
full investigation is warranted, the Inspector General will commence an investigation of
the allegation.

OIG Hotline Contacts
The OIG maintains a Hotline for reporting information about suspected waste, fraud,
abuse, or mismanagement involving Commission programs or operations. Information
may be provided by telephone, fax, email, mail, or through a web-based form. Upon
request, a provider’s identity will be kept confidential. Reports may also be made
anonymously.

We receive complaints from employees, contractors, and the public that involve the
Commission’s areas of responsibility. We examine these complaints to determine
whether there is any indication of Commission wrongdoing or misconduct. If the
complaint does not relate to the USITC, we refer the complaint to the appropriate agency
for response. If the complaint does not have merit, we close the matter.

The OIG has worked to increase awareness of the Hotline throughout the Commission by
creating a series of Hotline posters and holding OIG Outreach sessions with Commission
offices.




                                              11
                         Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Investigations and Inquiries
The Inspector General completed one administrative investigation report during this
reporting period.




           External Reviews Completed During this Period
The Commission did not have any external reviews completed during this reporting
period.



    Status of Actions Related to External Reviews Completed
                      During Prior Periods

Office of Personnel Management – Human Resources Review

The Office of Personnel Management performed an assessment of the Commission’s
human resource program. The purpose of the review was to determine the Commission’s
adherence to merit system principles, compliance with laws and regulations, and to assess
effectiveness of the administration of human resource management and systems. The
review was based on three human capital management elements from the Office of
Personnel Management’s Human Capital Assessment and Accountability Framework.

The final report was issued on June 25, 2013 and identified 25 recommendations for the
Commission. The Commission made management decisions to implement all of the
recommendations. During this reporting period, the Commission completed final action
on all 25 recommendations.



   Reviews Completed for Other Offices of Inspector General

Section 6(a)(3) of the Inspector General Act of 1978, as amended, gives the Inspector
General the authority to obtain assistance for carrying out the duties and responsibilities
provided by the Act from any other Federal agency.

The Inspector General provides assistance to other Offices of Inspector General by
performing independent information technology reviews. The reviews can cover a wide
array of information technology subject areas such as: penetration testing, vulnerability


                                              12
                         Report: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                      Inspector General Semiannual Report

assessments, configuration review, and evaluation of monitoring and incident detection
and remediation.

To facilitate assistance, the Inspector General will enter into a Memorandum of
Understanding with the other Federal agency, in accordance with 31 U.S.C. 1535, the
Economy Act of 1932, as amended. The Memorandum of Understanding describes the
subject area to be independently reviewed, scope, methodology, cost, schedule, and any
associated deliverables in writing before work is to be commenced. We completed one
review during this reporting period.




                           Congressional Activities
The Inspector General did not receive any Congressional data requests during this
reporting period.




   Council on Inspectors General for Integrity and Efficiency
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE). The Office of
the Inspector General staff have volunteered to serve as members on various working
groups and committees that address cross-cutting issues such as, knowledge management,
cloud computing, investigations, cyber security, new media, small agencies concerns, and
legislative issues.



 Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA, however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.




                                             13
                        Report: October 1, 2013 through March 31, 2014
             U.S. International Trade Commission
                      Inspector General Semiannual Report


                                     Peer Review
The Office of Inspector General’s last peer review report of our audit operations was
issued on January 16, 2013. The report determined that the system of quality control for
conducting audits had been suitably designed and implemented, and received a peer
review rating of pass. All recommendations identified in the report have been
implemented. The peer review schedule is set by the CIGIE. The next peer review of my
office will be conducted in one year.

During this reporting period, our office performed a peer review of the Federal Elections
Commission for the year ended September 30, 2013. We issued our peer review report to
the Inspector General of the Federal Election Commission on February 14, 2014.




                                             14
                        Report: October 1, 2013 through March 31, 2014
              U.S. International Trade Commission
                         Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed


                      Prior Significant Recommendations
                Where Corrective Action Has Not Been Completed
    Report Number                                   Recommendation
                       Develop and implement a single database to manage the Harmonized
    OIG-ER-12-08
                       Tariff Schedule.
                       Create a Commission-wide written policy that specifically addresses
                       procedures for handling and destroying nonrecord copies of confidential
     OIG-ER12-09
                       business information and business proprietary information when an
                       investigation or proceeding is closed.
                       Implement technical monitoring to detect the installation of software,
    OIG-AR-12-10
                       including details on when it was installed and by whom.


                    Table 5: Reports with Questions and Unsupported Costs

                   Reports with Questioned and Unsupported Costs
                                   Section 5(a)8
                                            Number of         Questioned        Unsupported
             Description
                                             Reports            Costs              Costs
Reports for which no management
decision has been made by the
                                                    0               $0                 $0
commencement of the reporting
period.
Reports issued during the reporting
                                                  11                $0                 $0
period.
                             Subtotals            11
Reports for which a management
decision was made during the                      10                $0                 $0
reporting period.
    • Dollar value of disallowed
                                                                    $0                 $0
        costs.
    • Dollar value of allowed costs.                                $0                 $0
Reports for which no management
decision has been made by the end of                11              $0                 $0
the reporting period.
                             Subtotals            11                $0                 $0



1
 The management decisions for the Charge Card Risk Assessment Report, OIG-MR-14-10 were not due
until after the reporting period had closed.

                                               15
                          Report: October 1, 2013 through March 31, 2014
               U.S. International Trade Commission
                         Inspector General Semiannual Report

             Table 6: Reports w/ Recommendations that Funds be Put to Better Use



         Reports with Recommendations that Funds be Put to Better Use
                               Section 5(a)9
                                                             Number of        Funds Put to
                        Description
                                                              Reports          Better Use
    Reports for which no management decision has been
                                                                    0                $0
    made by the commencement of the reporting period.
    Reports issued during the reporting period.                    11                $0
                                                Subtotals          11                $0
    Reports for which a management decision was made
                                                                   10
    during the reporting period.
        • Dollar value of recommendations agreed to by
                                                                                     $0
            management.
        • Dollar value of recommendations not agreed
                                                                                     $0
            to by management.
    Reports for which no management decision has been
                                                                    12               $0
    made by the end of the reporting period.
                                                Subtotals          11                $0




2
 The management decisions for the Charge Card Risk Assessment Report, OIG-MR-14-10, were not due
until after the reporting period had closed

                                               16
                          Report: October 1, 2013 through March 31, 2014
               U.S. International Trade Commission
                           Inspector General Semiannual Report

           Table 7: Reports With Final Action Completed During this Reporting Period


                           Reports With Final Action Completed
                              During this Reporting Period
                            Reports Issued This Reporting Period
                                                               Final Action     Final Action
                                      # of        Mgt.
            Report Title                                       Complete in     Complete This
                                      Recs.     Decisions
                                                               Prior Periods       Period
    Management Letter on Ethics
1                                        3            3               0                3
    Forms, OIG-ML-14-01
    Management and Performance
2                                        0            0               0                0
    Challenges, OIG-MR-14-03
    Audit of FY 2013 Financial
3                                        0            0               0                0
    Statement, OIG-AR-14-05
    Report on Internal Control FY
4                                        0            0               0                0
    2013, OIG-AR-14-06
    Report on Compliance with
5   Laws and Regulations,                0            0               0                0
    OIG-AR-14-07
    Management Letter for FY
6   2013 Financial Statement,            0            0               0                0
    OIG-ML-14-08
    Inspector General FISMA
7   Cyberscope FY 2013                   0            0               0                0
    Submission, OIG-MR-14-09
    Follow-Up on Whitelisting
8   Implementation,                      0            0               0                0
    OIG-MR-14-11
                            Totals       3            3               0                3
                                     Prior Reporting Periods
                                                               Final Action     Final Action
                                      # of        Mgt.
            Report Title                                       Complete in     Complete This
                                      Recs.     Decisions
                                                               Prior Periods       Period
  FISMA FY 2004 Performance
1                                       14            14             13                1
  Audit, OIG-AR-04-05
  Inspection of Physical
2                                       22            22             14                8
  Security, OIG-SP-11-12
  Evaluation of Employee Out-
3 Processing Program,                   11            11              8                3
  OIG-ER-12-07
                         Totals         47            47             35                12




                                                 17
                            Report: October 1, 2013 through March 31, 2014
               U.S. International Trade Commission
                         Inspector General Semiannual Report

                     Table 8: Status of Reports Issued Without Final Action

                    Status of Reports Issued Without Final Action
                                     This Reporting Period
                                                              Decisions
                                                                             Final      Action
                                      # of       Mgt.            IG
            Report Title                                                     Action      Not
                                      Recs.    Decisions      Disagrees
                                                                            Complete   Complete
                                                                With
    Audit of Patching Process,
1                                       7            7            0            1          6
    OIG-AR-14-02
    Post-FISMA Management
2                                       1            1            0            0          1
    Letter, OIG-ML-14-04
    Charge Card Risk
3                                       1            0            0            0          1
    Assessment, OIG-MR-14-10
                           Totals       9            8            0            1          8
                                     Prior Reporting Periods
                                                                Final        Final
                                                               Action        Action     Action
                                      # of       Mgt.
            Report Title                                      Complete      Complete     Not
                                      Recs.    Decisions
                                                                Prior         This     Complete
                                                               Periods       Period
    Evaluation of Modifications to
1                                       8            8            7            0          1
    HTS, OIG-ER-12-08
    Evaluation of Controlling
2                                       6            6            0            0          6
    CBI/BPI, OIG-ER-12-09
    Audit of Software Licensing,
3                                       6            6            4            0          2
    OIG-AR-12-10
    Audit of Citrix Remote
4                                       11           11           9            1          1
    Access, OIG-AR-13-01
    Evaluation of the Purchase
5                                       6            6            2            3          1
    Card Program, OIG-ER-13-08
    Audit of Perimeter Network
6                                       7            7            0            0          7
    Security, OIG-AR-13-09
    Audit of Security of Public
7   Facing Endpoints,                   3            3            1            0          2
    OIG-AR-13-10
                            Totals      47           47           21           6          20




                                                18
                           Report: October 1, 2013 through March 31, 2014
                U.S. International Trade Commission
                                          Appendix A


Appendix A: Chairman’s Statistical Tables
                              Table A: Reports with Disallowed Costs

     Total Number of Reports and the Dollar Value of Disallowed Costs
                                                          Number of       Dollar Value of
                      Description
                                                           Reports        Disallowed Costs
    Reports issued during the period.                          11                   $0
    Reports for which final action had not been taken
                                                               10                   $0
    by the commencement of the reporting period.
    Reports on which management decisions were
                                                              10 1                  $0
    made during the reporting period.
    Reports for which final action was taken during
                                                               11                   $0
    the reporting period.
        • Dollar value of disallowed costs,                                         $0
            recovered by management.
        • Dollar value of disallowed costs written                                  $0
            off by management.
    Reports for which no final action has been taken
                                                               10                   $0
    by the end of the reporting period.

              Table B: Reports with Recommendations that Funds be Put to Better Use


       Reports with Recommendations that Funds be Put to Better Use

                                                          Number of           Funds Put to
                      Description
                                                           Reports             Better Use
    Reports for which final action had not been taken
                                                                10                   $0
    by the commencement of the reporting period.
    Reports on which management decisions were
                                                                10                   $0
    made during the reporting period.
    Reports for which final action was taken during the
                                                                11                   $0
    reporting period including:
        • Dollar value of recommendations that were                                  $0
            actually completed.
        • Dollar value of recommendations that
            management has subsequently concluded                                    $0
            should not or could not be completed.
    Reports for which no final action has been taken by
                                                                10                   $0
    the end of the reporting period.

1
 Management Decisions for the Charge Card Risk Assessment Report, OIG-MR-14-10, were not due until
after the reporting period had closed.
                                                A-1

                           Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                Appendix A


         Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                              Funds Put        Reason Final
                                Disallowed
 Audit Report    Date Issued                   to Better      Action has Not
                                  Costs
                                                  Use          Been Taken
                                                             Provided in Part II B
OIG-ER-12-08     06/13/2012         $0            $0          of the Chairman’s
                                                                   Message
                                                             Provided in Part II B
OIG-ER-12-09     06/20/2012         $0            $0          of the Chairman’s
                                                                   Message
                                                             Provided in Part II B
OIG-AR-12-10     08/16/2012         $0            $0          of the Chairman’s
                                                                   Message
                                                             Provided in Part II B
OIG-AR-13-01     10/19/2012         $0            $0          of the Chairman’s
                                                                   Message
                                                             Provided in Part II B
OIG-ER-13-08     03/20/2013         $0            $0          of the Chairman’s
                                                                   Message




                                     A-2

                 Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
